IN THE SUPREME COURT OF THE UNITED STATES
No. 20-477
SHANIKA DAY AND HARVEY MORGAN,
PETITIONERS,
V.
FRANKLIN WOOTEN AND RANDALL DENNY,
RESPONDENTS.
CERTIFICATE OF COMPLIANCE
1. This document is a Reply Brief on the Merits and it complies with the word
limit of Supreme Court Rule 33 because, excluding the exempted parts of
the document, this document contains 4,062 words. (6,000 max)
2. This document complies with the typeface requirements of Supreme Court
Rule 33 and because the text of the document, including the appendix, is
typeset in Century 12-point type with 2-point or more leading between
lines, and footnotes in Century 10-point type with 2-point or more leading
between lines.
Dated: February 3, 2021

/s/ Nathaniel Lee
Nathaniel Lee, Esq.
LEE, COSSELL & CROWLEY, LLP
Faith E. Alvarez, Esq.

Counsel of Record

LEE, COSSELL & CROWLEY, LLP
151 N. Delaware Street, Ste. 1500
Indianapolis, Indiana 46204
Phone: (317) 631-5151
Fax: (317) 624-4561
nlee@nleelaw.com
falvarez@nleelaw.com

Attorneys for Petitioners

